 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


      Independent Review of The U.S. 

   Immigration and Customs Enforcement’s 

     Reporting of FY 2007 Drug Control 

                Obligations 





OIG-08-44                    April 2008
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                            April 18, 2008


                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the review of the Table of Drug Control Obligations and related
disclosures of the DHS’ Immigration and Customs Enforcement (ICE) for the year ended September
30, 2007, for the Office of National Drug Control Policy (ONDCP). We contracted with the
independent public accounting firm KPMG LLP to perform the review. ICE’s management
prepared the Table of Drug Control Obligations and related disclosures to comply with the
requirements of the ONDCP Circular, Drug Control Accounting, dated May 1, 2007. We do not
express an opinion on the Table of Drug Control Obligations and related disclosures.

It is our hope that the information in this report will continue to result in effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                                Richard L. Skinner 

                                                Inspector General 

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                      Independent Accountants' Report



Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Table of Drug Control Obligations and related disclosures of the
U.S. Department ofI!o~eland Security's (DHS) U.S. Immigration and Customs Enforcement (ICE) for the
year ended September30, 2007. We have also reviewed the accompanying management's assertions for
the year ended September 30, 2007. ICE's management is responsible for the· Table of Drug Control
Obligations and related disclosures, and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Table of Drug Control
Obligations and related disclosures and management's assertions. Accordingly, we do not express such an
opinion.

Management of ICE prepared the Table of Drug Control Obligations and related disclosures, and
management's asseltions to comply with the requirements of the Office of National Drug Control Policy
(ONDCP) Circular, Drug Control Accounting, dated May 1,2007.

Based on our review, nothing came to our attention that caused us to believe that (1) the Table of Drug
Control Obligations and related disclosures for the year ended September 30, 2007 is not presented, in all
material respects, in conformity with ONDCP's Circular, Drug Control Accounting (May 1, 2007), or that
(2) management's assertions referred to above are not fairly stated, in all material respects, based on the
criteria set forth in ONDCP's Circular, Drug Control Accounting (May 1, 2007).

This report is intended solely for the information and use of the management of DHS and ICE, the
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 25, 2008




                                '{pr,:,~ LLP :J   I).S. I rnl\e I 1,11.. !,I-'"'rlng:.,h 13 L:\!t L ':i
                                   lI'~f   t nll!ot "'f'f''3 n~";~~I'--,~;,!1          ..s.s ~QOp>:'II~~
                          Department of Homeland Security
                    U.S. Immigration and Customs Enforcement
            Detailed Accounting of Drug Control Funds During FY 2007             ­


   A.	 Table of Prior Year Drug Control Obligations


                                                               (in Thousands)
                                                               FY 2007 Final

                     Drug Resources by Function
                      Investigations                                  361,865
                      International Affairs                             4,564
                      Office of Intelligence                            4,024
                        Total                                         370,453

                     Drug Resources by Decision Unit
                      Salaries and Expenses                           370,453
                       Total                                          370,453

Disclosure NO.1: Drug Methodology

Immigration and Customs Enforcement (ICE) is a multi-mission bureau, and obligations
are reported pursuant to an approved drug methodology. Separate calculations are
made for the three ICE programs which undertake drug-related investigative activity:
Office of Investigations, International Affairs and the Office of Intelligence.

The methodology for U.S. Immigration and Customs Enforcement (ICE) is based on
investigative case hours recorded in ICE's automated Case Management System
Treasury Enforcement Communication System (TECS). ICE agents record the type of
work they perform in this system. Following the close of the fiscal year, a report is run
showing investigative case hours that are coded as general drug cases and money
laundering drug cases. A second report is run showing all investigative case hours
logged. A percentage is derived by dividing the number of investigative case hours
linked to drug control activities by the total number of investigative case hours. Applying
the percentage to the total of direct resources results in a cost allocated to drug cases.
This percentage may fluctuate from year to year.

Investigations Program

•	 The methodology for the Office of Investigations is based on investigative case
   hours recorded in ICE's automated Case Management System. ICE officers record
   the type of work they perform in this system. Following the close of the fiscal year, a
   report is run showing investigative case hours that are coded as general narcotics
                                             -2­

     cases and money laundering narcotics cases. A second report is run showing all
     investigative case hours logged. A percentage is derived by dividing the number of
     investigative case hours linked to drug control activities by the total number-of
     investigative case hours. This percentage may fluctuate from ye?r to year. For
     FY 2007 the percentage was 28.5%. To calculate a dollar amount, this percentage
     is applied to actual obligations incurred by the Office of Investigations (01) against
     budget authority gained in FY 2007, excluding reimbursable authority.

Intelligence Program

•	   ICE employs the same methodology for calculating all drug control activities within
     the Office of Intelligence's budget. For FY 2007, 8.7% of the total case hours for
     Intelligence were found to be in support of drug control activities through an
     examination of data recorded in the Case Management System. This percentage
     was applied to actual obligations against budget authority gained in FY 2007
     incurred by the Office of Intelligence for all activities.

International Affairs Program

•	 The methodology for the Office of International Affairs (OIA) is based on
   investigative hours recorded in ICE's automated Case Management System. ICE
   officers record the type of work they perform in this system. Following the close of
   the fiscal year, a report is run showing investigative hours that are coded as general
   narcotics cases and money laundering narcotics cases. For FY 2007,4.13% was
   applied to actual obligations against budget authority gained in FY 2007 incurred by
   the Office of International Affairs for all activities.


Disclosure NO.2: Methodology Modifications

The methodology has not changed from FY 2006.

Disclosure NO.3: Material Weakness or Other Findings

In FY 2007, Immigration and Customs Enforcement (ICE) provided reasonable
assurance regarding its financial controls and reporting pursuant to the Department of
Homeland Security (DHS) Financial Accountability Act, P.L. 108-330. Specifically,
internal controls over financial reporting were designed effectively within the scope of
the DHS Consolidated Balance Sheet audit and based on management's assessment
of internal controls over financial reporting. These controls are operating effectively and
were tested in FY 2007 and passed. These tests revealed no material weaknesses in
ICE's financial reporting. ICE has also remediated its two FY 2006 remaining material
weaknesses, Budgetary Accounting and Financial Systems Security, and received an
unqualified internal opinion on its balance sheet audit.

In FY 2006, ICE also reported, pursuant to 31 U.S.C. 3512(d)(2)(B), that its financial
system conformed with government-wide requirements except for a non-conformance
                                           -3­

wherein ICE's financial accounting system did not interface with the acquisition and
asset management systems. However, in FY 2007, ICE effectively managed its
acquisition and property management transactions because ICE performed
reconciliations to ensure data integrity.

In FY 2007, ICE built a culture of financial accountability and financial integrity
throughout the organization. With the appointment of key financial managers, ICE
strengthened its management team. ICE's Office of Assurance and Compliance
oversaw and monitored ICE's comprehensive Financial Action Plan (FAP). Even
though ICE resolved its material weaknesses in FY 2007, it will update its FAP to
improve internal controls and continue its progress in financial management in FY 2008.

Disclosure NO.4: Reprogrammings or Transfers

No Reprogrammings or Transfers of drug-related budget resources occurred during FY
2007.

Disclosure NO.5: Other Disclosures
In previous submissions, the Office of International Affairs' drug-related obligations and
program requests were included as part of the Office of Investigations' request. In FY
2007, there was an organizational change that established OIA as a stand-alone office
within ICE. This and future year submissions will reflect that change.

There are no other disclosures, which we feel are necessary to clarify any issues
regarding the data reported.



B. Assertions

Assertion NO.1: Obligations by Budget Decision Unit

Not Applicable- noted in the ONDCP Circular: Drug Control Accounting 6(b)(1).

Assertion NO.2: Drug Methodology

The methodology used to calculate obligations of prior year budgetary resources by
function and by budget decision unit is reasonable and accurate in regard to the
workload data employed and the estimation methods used. The financial system used
to calculate the drug-related budget obligations is the Federal Financial Management
System (FFMS).

Assertion No.· 3 Application of Drug Methodology

The methodology disclosed in section A, Disclosure No. 1 was the actual methodology
used to generate the Table.
                                          -4 ­



Assertion NO.4: Reprogrammings or Transfers

No Reprogrammings or Transfers of drug-related budget resources occurred during FY
2007.

Assertion NO.5: Fund Control Notices

The data presented are associated with obligations against a financial plan that fully
complied with the Fund Control Notice issued by the Director of the Office of National
Drug Control Policy on September 21, 2006. The ICE plan was sent to ONDCP on
October 31,2006, and approved by ONDCP on November 21,2006.
Report Distribution



      Department of Homeland Security
      Secretary 

      Deputy Secretary 

      Chief of Staff 

      Deputy Chief of Staff 

      General Counsel 

      Executive Secretary 

      Director, GAO/OIG Audit Liaison 

      Assistant Secretary for Policy 

      Assistant Secretary for Legislative Affairs 

      Assistance Secretary for Public Affairs 

      Under Secretary for Management 

      Chief Financial Officer 


      Office of National Drug and Control Policy
      Associate Director for Planning and Budget

      U.S. Immigration and Customs Enforcement
      Assistant Secretary
      

      Chief Financial Officer 

      ICE Audit Liaison 


      Office of Management and Budget
      Chief, Homeland Security Branch 

      DHS OIG Budget Examiner 


      Congress
      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
